'9

IN THE SUPREME COURT OF THE UNITED STATES
Case No. 20-6546

JOHN C. NIMMER,

Supreme Court, U.S.
FILED

Petitioner,

FEB 2 6 2021
Vs.

OFFICE OF THE CLERK

PETITION FOR REHEARING

HON. MICHAEL G. HEAVICAN,
Chief Justice
Chief Justice of the Nebraska
Court in his official capacity;
HON. STEPHANIE F. STACY, Justice
of the Nebraska Supreme Court
in her official capacity;

(From the United States Court
of Appeals for the Eighth
Circuit)

HON. LINDSEY MILLER-LERMAN,
Justice of the Nebraska Supreme Court
in her official capacity;
HON. WILLIAM B. CASSEL, Justice
of the Nebraska Supreme Court
in his official capacity;
HON. JONATHAN J. PAPIK, Justice
of the Nebraska Supreme Court
in his official capacity;

Submitted by,
John C. Nimmer
1429 S. Grandview Ave. #8
Papillion, NE 68046
402-345-8040
Pro Se Petitioner

HON. JEFFREY J. FUNK, Justice
of the Nebraska Supreme Court
in his official capacity;
HON. JOHN R. FREUDENBERG, Justice
of the Nebraska Supreme Court
in his official capacity;
MARK A. WEBER, Counsel for Discipline,
Respondents.

1

COMES NOW the Petitioner John C. Nimmer, and pursuant to Supreme
Court Rule 44.2 petitions for rehearing of this Court's February 22, 2021
Order denying Petitioner's August 14, 2020 Petition for Writ of Certiorari,
that a certiorari writ be granted, and a briefing schedule and oral argument
set. The grounds are limited to intervening circumstances of a substantial or
controlling effect or to other substantial grounds not previously presented.
The undersigned therefore certifies this motion for rehearing is submitted in
good faith and not for delay.
Rulings since the August 14, 2020 Petition for Writ of Certiorari have
now wholly foreclosed federal review over even the most egregious
constitutional violations in attorney disciplinary cases. Also as admission to
and continued federal practice is as a practical matter wholly dependent
upon state licensure, abstention for reasons of federalism is both
inappropriate and an unwarranted ceding of jurisdiction over the federal
practice of law to the states.
No Federal Review Is Now Available For Constitutional Violations In State
Attorney Discipline Matters
1. There is no possibility of federal review of factually based (as
applied) constitutional violations in attorney discipline cases.
A. Cases filed in US District Courts:

Cases filed while state discipline proceedings are pending
are denied for Younger abstention, even in situations of bad
faith such as racism against a lawyer and his clients. See
Timothy L. Ashford v. (Nebraska) Office for Counsel for
Discipline, 20-757, cert. petition docketed December 2,
2020; cert. denied January 25, 2021; rehearing requested
February 17, 2021.
Cases filed after state discipline proceeding are concluded
are always denied under the Rooker-Feldman doctrine. See
Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923); District
of Columbia Court of Appeals v. Feldman, 460 U.S. 462
(1983).
B. Certiorari is never granted for cases filed directly in the US
Supreme Court (despite US District Courts in the course of
dismissing claims under Rooker-Feldman routinely arguing
plaintiffs should instead have gone directly to SCOTUS). Gary
Victor Dubin v. (Hawaii) Office of Disciplinary Counsel, 20A79,
Application for Stay docketed October 30, 2020, certiorari denied
December 7, 2020.

2. There is no possibility of federal review of facial
(systemic/institutional) constitutional infirmities in attorney discipline
cases.
Cases filed in US District Court prior to the conclusion of state
disciplinary proceedings are dismissed under Younger (see
Ashford, supra. where in part his claims were facial not applied),
and after conclusion of state disciplinary proceedings are
purportedly concluded, dismissed for lack of standing. See
Nimmer v. Heavican, et. al, 4:18cv-3123, Dist. Nebr.; summarily
affirmed 8th circuit Case No. 19-2426; US Sup. Ct. Case 20-6546
cert. denied February 22, 2021.
The US Supreme Court never grants certiorari review for cases
directly filed with it. See Dubin, supra.—where some of his claims
were facial not applied.
The Undesirable Consequences
Wholesale ceding of jurisdiction over the federal practice of law to the
states is incompatible with the existence of concurrent separate sovereigns.
Weaponization of the attorney discipline process to sideline attorneys
representing unpopular causes or clients robs them of the means of peaceful
redress. As written by Shakespeare in Henry VI, the refrain of would be

4

tyrants that "The first thing we do, let's kill all the lawyers" sounds like a
Proud Boys or Antifa battle cry. Historical misuses of attorney discipline—
principally disbarment—for improper purposes has occurred against
attorneys criticizing Cromwell's 17th century English government, and in
America attorneys defending both loyalists and patriots, ministers of
nonapproved religious denominations, abolitionists, advocates of civil
liberties and rights, alleged communists, free speech advocates, and those
exercising religious liberty and conscience rights. As with an independent
judiciary, attorneys are essential to the rule of law and they must therefore
have a meaningful opportunity to defend themselves against improper
allegations of misconduct and its debilitating consequences of suspension
and disbarment.
Why Grant Certiorari For This Case?
Understandably this Court cannot grant certiorari for every attorney
discipline case, but it can provide guiding precedent to state and lower
federal courts by granting this one. Petitioner's US District Court facial
attack (Note 1) against the constitutional infirmities of the Nebraska attorney
discipline system is bigger than his situation and applicable to a host of other
cases. It is settled law that lawyers have a property interest in their licenses
to practice, and due process applies in their taking. Legal sophistry to deny

5

any and all claims that separation of powers (Note 2) is mandated by due
process and other constitutional protections (privileges and immunities;
states to have a republican form of government which mandates separation
of powers) renders the requirement meaningless. It is fundamentally unfair
for Frank James to judge Jesse James' cause, and for the Nebraska Supreme
Court to judge the claims of its wholly dependent Counsel for Discipline.
Granting Petitioner certiorari, then determining if, when, and before which
courts a federal facial institutional challenge may be brought would have
great precedential value.
Endnotes
September 4, 2018 Verified Petition in Nimmer v. Heavican, et. al,
4:18cv-3123, Dist. Nebr., is accessible both on the PACER system
and through the following google documents hyperlink:
https://docs.google.com/document/u/l/d/e/2PACX-1vQb8b7U8A0dBajDCs0YR8sypLHRH74pymIIPIILzW9UzFb8zmq1IRvEtQVD9CLIgKeGIuXQmPZJdS/pub
It further a principal of both the natural and English common law,
which at times are appropriate interpretative guides for constitutional
jurisprudence, that no one is to judge his own cause (Nemo judex in
causa sua). Sir Edward Coke, Institutes of the Laws of England, §
212, 141 (1628); "The accumulation of all powers, legislative,
executive, and judiciary, in the same hands, whether of one, a few, or
many, and whether hereditary, self appointed, or elective, may justly
be pronounced the very definition of tyranny." James Madison,
Federalist No. 47; "Power tends to corrupt and absolute power
corrupts absolutely. Lord Acton.

